<html>
<title> - H. CON. RES. 251, H.R. 4118, AND H.R. 4249</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





               H. CON. RES. 251, H.R. 4118, AND H.R. 4249

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 4, 2000

                               __________

                           Serial No. 106-161

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-826                     WASHINGTON : 2000

                                 ______

                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                     Jill N. Quinn, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H. Con. Res. 251, a resolution commending the Republic 
  of Croatia for the conduct of its parliamentary and 
  presidential elections.........................................     1
Markup of H.R. 4118, The Russian-American Trust and Cooperation 
  Act of 2000. A bill to prohibit the rescheduling or forgiveness 
  of any outstanding bilateral debt owed to the United States by 
  the Government of the Russian Federation until the President 
  certifies to the Congress......................................     5
Markup of H.R. 4249, The Cross-Border Cooperation and 
  Environmental Safety in Northern Europe Act of 2000. A bill to 
  foster cross-border cooperation and environmental cleanup in 
  Northern Europe................................................    27

                                APPENDIX

Prepared statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York and Chairman, Committee on 
  International Relations, statements on H. Con. Res. 251, H.R. 
  4118, and H.R. 4249........................................32, 34, 40
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, statement on H.R. 4118..............    43

Bills and amendments:

Text of H. Con. Res. 251.........................................    46
    Amendment to H. Con. Res. 251 offered by Mr. Radanovich......    49
Text of H.R. 4118................................................    50
    Amendment to H.R. 4118 offered by Ms. Ros-Lehtinen 
      (withdrawn)................................................    56
    Amendment to H.R. 4118 offered by Mr. Gejdenson (withdrawn)..    58
    Amendment to H.R. 4118 offered by Mr. Gejdenson (adopted)....    59
Text of H.R. 4249................................................    61
    Amendment (en bloc) to H.R. 4249 offered by Mr. Gejdenson 
      (approved).................................................    72
Vote tally on motion to adjourn..................................    74

 
               H. CON. RES. 251, H.R. 4118, AND H.R. 4249

                              ----------                              


                              MAY 4, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:13 a.m. in 
room 2172, Rayburn House Office Building, Hon. Benjamin A. 
Gilman, (Chairman of the Committee) presiding.
    Chairman Gilman. The Committee on International Relations 
meets today in open session to consider three items of 
business.
    In the interest of time, I will save my opening remarks for 
the specific items, but will extend an opportunity to our 
colleague, the gentleman from Connecticut, to make any remarks 
he might desire at this time. Mr. Gejdenson, do you have an 
opening statement?
    Mr. Gejdenson. No.
    Chairman Gilman. The first matter to be considered is H. 
Con. Res. 251 relating to Croatia. The resolution is before the 
Committee. The clerk will report the title of the resolution.


                   CONSIDERATION OF H. CON. RES. 251


    Ms. Rush. House Concurrent Resolution 251, a concurrent 
resolution commending the Republic of Croatia for the conduct 
of its parliamentary and Presidential elections.
    Mr. Gilman. Without objection, the preamble operative 
language resolution be read in that order for amendment the 
clerk will read.
    Ms. Rush. Whereas, the fourth Croatian parliamentary 
elections held on January 3, 2000, marked Croatia's progress 
toward meeting its commitment----
    Mr. Gilman. Without objection, the resolution will be 
deemed as having been read and is open to amendment at any 
point. The resolution is under the jurisdiction of the full 
Committee, and I recognize the gentleman from California, Mr. 
Radanovich, who sponsored the resolution, to introduce the 
resolution to us.
    Mr. Radanovich. Thank you, Mr. Chairman, and thank you for 
bringing this bill to markup.
    I also want to offer an amendment to my own bill at this 
time, which is actually perfecting language. This language 
takes into consideration some minor concerns the Chairman had 
expressed, and I believe the resolution is stronger for it. I 
will proceed to explain this bill, including this perfecting 
language.
    On February 15 of this year, I introduced H. Con. Res. 251 
commending the Republic of Croatia for the successful conduct 
of its parliamentary and Presidential elections. The free and 
fair elections in Croatia and the peaceful and orderly transfer 
of power from the old to the new government is an example of 
democracy to the people of other nations in the region and a 
major contribution to the democratic development of 
southeastern Europe.
    President Mesic has pledged to bring this country into the 
European Union in 5 years, and even if this is an ambitious 
goal he is to be commended. President Mesic has promised, and 
has in fact undertaken some concrete steps, to end interference 
in Bosnia, to welcome returning Serb refugees, and to cooperate 
with the International Court in pursuing alleged Croat war 
criminals. He has also promised further privatization and media 
reform.
    Although President Mesic and his new government face many 
difficulties, I am very optimistic that Croatia is on a new 
path, and I am hopeful that we will do our utmost to encourage 
them on this correct path.
    My resolution also calls for United States support and 
facilitation of Croatia's goals for membership in the NATO's 
Partnership for Peace program and its accession into the World 
Trade Organization. I firmly believe that by supporting 
Croatia's membership in the PFP and its accession to WTO we 
will not only be making a sound investment in the future and in 
the stability of southeast Europe, but we will also be sending 
a clear message to other countries in the region of the 
benefits that come from choosing a democratic path.
    Croatia was a tremendous ally to us last year during the 
Kosovo conflict, and as far as I am concerned they have more 
than demonstrated their loyalty to the United States. In my 
opinion, their membership in the Partnership for Peace program 
has already been earned and is long overdue. There is no 
question that we need a trustworthy ally in southeast Europe 
where we have spent an exorbitant amount of money and time.
    Mr. Chairman, thank you again for bringing this important 
resolution before the Committee today, and I urge my colleagues 
to vote favorably. Thank you, sir.
    Chairman Gilman. Mr. Radanovich, we welcome you to offer 
your amendment at this time.
    Mr. Radanovich. Thank you. I offer the amendment as a 
perfecting amendment.
    Chairman Gilman. The clerk will report the amendment.
    Ms. Rush. Amendment offered by Mr. Radanovich. Page 2, line 
10, after privatization reform insert----
    Chairman Gilman. The amendment is considered as having been 
read. Mr. Radanovich is recognized for introduction of his 
amendment.
    Mr. Radanovich. This is basically perfecting language, Mr. 
Chairman, and I believe it takes into account the minor 
concerns that you had expressed, and I believe the resolution 
is stronger for it.
    Chairman Gilman. The vote is on the amendment. All in favor 
of the amendment signify in the usual manner.
    [Chorus of ayes.]
    Chairman Gilman. The amendment is carried.
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I just want to take 
this time to commend the gentleman for his amendment and the 
initial legislation that he offered here. I think it is 
appropriate. We are all very enthused about the change in 
direction in Croatia.
    I would just mention that the last meeting of the Standing 
Committee of the NATO Parliamentary Assembly, we, seeing the 
change in course in Croatia, have taken similar steps now to 
bring Croatia into associate member status, so this is 
certainly entirely consistent with it, and I thank the 
gentleman for his initiative.
    Chairman Gilman. Thank you, Mr. Bereuter.
    Are any other Members seeking recognition? Mr. Gejdenson.
    Mr. Gejdenson. Yes, Mr. Chairman. Let me join my colleagues 
in expressing support for this resolution. Mr. Radanovich has 
taken the lead and done so in an area where in the former 
Yugoslavian Republic we are often here to review failures and 
continued frustration in a sense that we are not making 
progress sometimes, even though we may be involved in a 
righteous and worthy cause.
    When you take a look at the participation in the election, 
when you look at the commitments made by the candidates, it 
really is clear that we have an important step forward here in 
the Balkans.
    It is an indication that the flexibility that the 
Administration has had is productive at times, and clearly what 
we want to do is work with the Administration to try to develop 
the same kind of success elsewhere in the former Yugoslavian 
Republic, so I commend the gentleman for his efforts and hope 
that we would continue to work to try to bring a democratic 
institution, civil society and economic reform to the other 
areas that were once part of Yugoslavia.
    Chairman Gilman. Thank you, Mr. Gejdenson.
    Are any other Members seeking recognition? If not, I would 
like to note that the resolution as amended by its sponsor, Mr. 
Radanovich, is timely and appropriate, and I commend the 
gentleman for introducing this measure.
    People of Croatia has suffered through several years of 
warfare and destruction, ethnic strife, economic stagnation. As 
the resolution points out, the elections held recently for the 
Croatian parliament and presidency were indeed conducted in a 
free, fair and democratic manner by all accounts that we have 
received.
    Just as important, however, is the fact that those 
elections brought to power a government that appears intent on 
moving Croatia forward in all respects. Accordingly, we agree 
that it would be worthwhile for us to show our support for that 
new government in the form of this resolution.
    The new Croatian government will face challenges in opening 
up its economy and in finding ways to insure that its support 
for ethnic Croats in leaving Bosnia does not lead Croatia to 
undermine the sovereignty of that state. It will face serious 
challenges in other areas as well.
    The amended resolution, if approved by our Committee, will 
make it clear that success in meeting these challenges should 
be met by American and European support for Croatia's full 
entry into the European and transatlantic community of nations, 
including entry into NATO's Partnership for Peace program.
    Now is the time for Croatia to build its new democratic 
future, and I think the resolution points to that fact. I 
congratulate and it does congratulate the Croatian people for 
so clearly choosing the path of democracy in its recent 
elections.
    Mr. Hastings. Mr. Chairman.
    Chairman Gilman. Judge Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman. Mr. 
Chairman, with your permission I would like to know the 
Administration's position with reference to this matter, if it 
is at all possible.
    Chairman Gilman. Will a member of the Administration come 
up to the mike and identify yourself?
    Mr. Hastings. Thank you, Mr. Chairman.
    Mr. Guess. Thank you. Thank you, Mr. Chairman, for the 
opportunity to appear before the Committee today. My name is 
Michael----
    Chairman Gilman. Would you press your button?
    Mr. Guess. Let me try this again.
    Chairman Gilman. Thank you.
    Mr. Guess. My name is Michael Guess. I am Deputy Assistant 
Secretary for the Bureau of Legislative Affairs in the State 
Department. Thank you again for the opportunity to come today 
before you.
    Chairman Gilman. Please proceed.
    Mr. Guess. Mr. Chairman, we very strongly support this 
resolution. We very much appreciate Congressman Radanovich's 
interest in Croatia. We also very much appreciate the support 
of both the Majority and the Minority in our partnership in 
trying to insure that Croatia continues to proceed along the 
democratic path and toward greater economic reform.
    We agree entirely with the sentiments that this resolution 
expresses, including regarding the progress that has been made 
by the new democratic and reform minded government of Croatia. 
We fully support Croatia's membership in the World Trade 
Organization. We are working to help develop a NATO consensus 
in support of Croatia's membership in the Partnership of Peace, 
and we hope that that effort will bear fruit in the coming 
months.
    We also agree very strongly that Croatia should continue 
and increase its work on refugee return, economic reform, media 
reform and cooperation with the international tribunal.
    Thank you, Mr. Chairman.
    Chairman Gilman. Thank you.
    Judge Hastings.
    Mr. Hastings. Thank you.
    Chairman Gilman. Any other Member seeking recognition? If 
not, the gentleman from Nebraska, Mr. Bereuter, is recognized 
now for a motion.
    Mr. Bereuter. Mr. Chairman, I move the Chairman be 
requested to seek consideration of the pending resolution as 
amended on a suspension counter.
    Chairman Gilman. The question is now the motion. The 
gentleman from Nebraska, Mr. Bereuter, as being here. All those 
in favor of the motion signify by saying aye.
    [Chorus of ayes.]
    Chairman Gilman. All those opposed signify by saying no.
    [No response.]
    Chairman Gilman. The ayes have it. The motion is agreed to. 
Further proceedings on this measure are postponed.
    We will now consider H.R. 4118 relative to the Lourdes 
facility in Cuba and refinancing Russian debt. The Chair lies a 
bill before the Committee. The clerk will report the title of 
the bill.


                       CONSIDERATION OF H.R. 4118


    Ms. Rush. H.R. 4118, a bill to prohibit the rescheduling or 
forgiveness of any outstanding bilateral debt owed to the 
United States by the government of the Russian Federation until 
the President certifies to the Congress that the government of 
the Russian Federation has ceased all its operations at, 
removed all personnel from and permanently closed the 
intelligence facility at Lourdes, Cuba.
    Chairman Gilman. Without objection, the first reading of 
the bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Rush. Be it enacted by the Senate and the House of 
Representative of the United States of America in Congress 
assembled, Section 1, Short Title. This act may be cited----
    Chairman Gilman. Without objection, the bill is considered 
as having been read and is open for amendment of any part. The 
bill is under the jurisdiction of the full Committee.
    I now recognize the gentlelady from Florida, Ms. Ros-
Lehtinen, the distinguished Chairman of the Subcommittee on 
International Economic Policy and Trade, for 5 minutes to 
introduce her bill.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    While many of our Committee colleagues are already 
cosponsors of this legislation and are knowledgeable on its 
purpose, I would like to offer a brief overview about what the 
bill does.
    The threat posed by Russia's facility at Lourdes is not 
new. The Freedom Support Act of 1992 clearly underscored the 
dangers to United States national security as it required the 
United States Government to reduce certain foreign assistance 
to Russia proportional to the amount that the Russian 
government provides to Lourdes.
    Ensuing legislation reiterated this position. However, due 
at first to concerns about the new Russian democracy and market 
economy and later due to considerations relating to United 
States/Russian relations, this requirement has never been 
enforced. Eight years of talks, 8 years of providing the 
Russian Federation with billions of dollars in United States 
aid of one sort or another, 8 years of rescheduling the Russian 
debt at different intervals, and Lourdes remains a serious 
problem.
    On May 5, 1998, in unclassified letters to Members of this 
Committee, Secretary of Defense Cohen stated, ``I remain 
concerned with the signals intelligence facility at Lourdes,'' 
and, ``the use of Cuba as a base for intelligence activities 
directed against the United States.'' In fact, evidence 
suggests that there has been an increase, not a reduction, of 
the threat posed by the Lourdes facility.
    Coinciding with the February 7, 1996, order by then Russian 
President Yeltsin demanding that the Russian intelligence 
community increase its gathering of United States and other 
western economic and trade secrets, multiple open sources 
confirmed that the Russian Federation began a multi-billion 
dollar upgrade and expansion of the Lourdes facility, which 
included, according to open sources and public statements by 
former United States officials, by Russian and Cuban defectors, 
the addition of satellite dishes, voice recognition facilities, 
more sophisticated computers for intercepting specific 
telephone numbers, faxes and computer data and the means by 
which to engage in cyber warfare against the United States.
    In fact, some believe that the ongoing sophisticated and 
organized cyber attacks the Pentagon military computer systems 
were subjected to in early 1999 came from a country routing 
through Russian computer addresses. These attacks have been 
occurring since 1998 and are believed to stem from the Lourdes 
facility. Other public sources and reports refer to the jamming 
of U.S. FAA transmissions as an example of how Lourdes has used 
cyber warfare, which directly threatens the lives of Americans.
    On November 5, 1998, a Moscow publication reported that the 
Lourdes espionage facility provides between 60 and 70 percent 
of all intelligence data about the United States, including 
highly sensitive military information about our armed forces. 
Such a penetration of closely guarded American military 
planning jeopardizes the lives of thousands of our men and 
women in uniform.
    Some may dismiss the latter contention on the assumption 
that Russia, as an ally, would not compromise United States 
security in that fashion. However, I ask them to look at 
Russia's recent actions against Kosovo, Iraq, its reported arms 
transfers to China and Iran, its multiple penetration of the 
State Department.
    I would further underscore the detailed information 
provided by Russian defectors and former Cuban intelligence 
officers confirming that the Russian Federation shares the data 
on the United States derived from Lourdes with the Castro 
regime and shares or sells the information to North Korea, to 
Iraq, to China and Iran, as well as individual groups which are 
hostile to the United States.
    The use of Lourdes, however, according to academic studies 
and news reports, is not limited to secret U.S. military 
operations. Its targets include the interception of sensitive 
diplomatic, commercial and economic traffic and private U.S. 
telecommunications.
    Informed public sources state that economic traffic 
intercepted includes Federal Reserve deliberations, planned 
U.S. mergers and acquisitions, competitive bidding processes, 
data which could be used to bankroll Russian global operations 
to the detriment of American equity.
    The disdain for U.S. security extends into the private 
realm as revealed by the director of the Defense Intelligence 
Agency in August, 1996, who stated that Lourdes is being used 
to collect personal information about U.S. citizens in the 
private and government sectors. This means that one of our 
constituents could be a target, yet what are we doing to 
protect them?
    By asking the American people to look the other way on the 
$1.9 billion in outstanding loan guarantees under the Commodity 
Credit Corporation of USDA; by asking our constituents to 
forgive or reschedule the $602 million in unleased debt to the 
United States; by asking the United States taxpayer, who 
already contributes greatly to Russia's growth and development 
through foreign aid programs; to disregard the $2.17 billion in 
outstanding X/M bank loans and guarantees, the $11.3 billion in 
insurance and the----
    Chairman Gilman. The gentlelady's time has expired. Please 
wind up your statement.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    The $22.9 million of claims in recovery, we are asking the 
American taxpayer to absorb the cost of Russia's espionage 
activity. Essentially we are asking them to indirectly 
subsidize Russia's spy operations.
    By rescheduling or forgiving Russia's debt to the United 
States, we are freeing up funds for Russia to pay the Castro 
regime $200 million to $300 million a year for the continued 
operations of Lourdes. Not having to worry about paying its 
debt to the United States, the Russian government is then able 
to focus its resources on expanding and upgrading its operation 
at Lourdes so that it can better target and undermine United 
States national security, foreign policy objectives and 
political and economic stability. This cannot and must not 
continue.
    The bill before us, Mr. Chairman, H.R. 4118, affords us the 
necessary leverage to correct this situation. It holds the 
Russian government accountable for its actions. Trust must be 
earned. When the United States Government treats the Russian 
Federation as an ally and wishes to build upon existing 
relations, it expects the Russians to act in accordance. The 
Russian response to United States assistance and cooperation in 
the form of debt forgiveness has been to spy on and threaten 
the American people through its operation at Lourdes.
    How can we go back to our district and look at our 
constituents, the good men and women who elect us because they 
trust that we will do the right thing by them and their 
children? How can we look into their eyes and----
    Chairman Gilman. The gentlelady's time has expired. I 
understand the gentlelady has an amendment.
    Ms. Ros-Lehtinen. I do, Mr. Chairman.
    Chairman Gilman. Will you submit your amendment at this 
time?
    Ms. Ros-Lehtinen. I do, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Gilman. The clerk will report, and the clerk will 
distribute the amendment.
    Ms. Rush. Amendment offered by Ms. Ros-Lehtinen. Page 4, 
line 21, strike notwithstanding and insert----
    Chairman Gilman. The amendment is considered as having been 
read. Without objection, the gentlelady is recognized for 
submission of the amendment.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    In response to concerns about the need to afford the 
President discretion over this matter and the implementation of 
this bill, I am amending my bill to allow for a national 
security waiver. However, it asks that the President notify the 
Congress 10 days before suspending the provisions of this bill 
and certify to this Committee and to the Senate Foreign 
Relations Committee that the national security interests and 
foreign policy priorities are furthered by such a waiver.
    It affords the opportunity to the President to submit 
portions of the certification in classified form if necessary. 
The waiver is limited to debt rescheduling because allowing a 
waiver for the forgiveness of debt would make this bill non-
existent and would nullify any congressional oversight over 
this issue.
    Last, due to the nature of debt rescheduling, the fact that 
rescheduling is multi-year, a waiver could provide the Russian 
Federation with multiple years of latitude without any United 
States leverage on the subject of Lourdes.
    For this reason, I have included language in this amendment 
requiring periodic reports on United States national interests 
being furthered by the waiver on Russia's compliance with arms 
limitations and nonproliferation agreements and the status of 
Russian operations at Lourdes.
    This is a fair balance, a comprehensive amendment that I 
hope our colleagues support, and I would like to remind our 
colleagues that just this week Secretary Albright stated during 
an unusual town hall meeting for State Department employees, 
that ``If you are not professional about security, you are a 
failure. Forget that the Cold War ended. Our nation still has 
enemies.''
    Our secrets still need protecting, and the time to act is 
now to protect our secrets, our security, the American people. 
I hope that we can get our colleagues to vote for the bill and 
to support this waiver amendment, Mr. Chairman.
    Chairman Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I have an amendment to the 
amendment at the desk.
    Chairman Gilman. The clerk will distribute the amendment. 
The clerk will report the amendment.
    Ms. Rush. Amendment offered by Mr. Gejdenson. Page 5, line 
9, strike----
    Chairman Gilman. The amendment is considered as having been 
read. Mr. Gejdenson is recognized for the amendment.
    Mr. Gejdenson. Mr. Chairman, there may be some confusion. 
It might be mine. It might be somebody else's. My amendment 
starts on page 1, strike lines 11 through 18 and make such 
conforming changes as may be necessary, and on page 2 strike 
lines 12 through 19.
    Chairman Gilman. The amendment is in error that the clerk 
read? Is that correct? Did you read the correct amendment?
    The clerk will distribute the amendment. Will you please 
give the clerk a copy of the amendment?
    Ms. Rush. Amendment offered by Mr. Gejdenson. On page 1, 
strike lines 11 through----
    Chairman Gilman. The amendment is considered as having been 
read without objection. Mr. Gejdenson is recognized on his 
amendment.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    There are a number of issues here that, frankly, might be 
best discussed in a closed session, but for the discussion that 
we can have in open session I think the underlying issues here 
are very complicated. America's listening posts around the 
world are many, and I think it would be against America's 
national interest if attempts to close our listening posts 
became the battleground between Russia and the United States.
    I would argue, without giving away anything that is 
classified, that we are far more successful at gathering 
information, it is far more important to our worldwide 
operations and that exposing listening posts globally and 
having a public relations battle could endanger America's 
national security.
    So first of all, I think that the issue itself is very 
complicated. There are many people who argued during the Cold 
War that, frankly, listening to each other, the major powers to 
each other's activities, provided some confidence that there 
were no surprise attacks lurking, that it actually helped allay 
fears and prevented what may have or might have turned out to 
be a disastrous confrontation.
    I will discuss the entire bill at greater length later, but 
what is clear is that the gentlelady from Florida really 
provides no waiver at all because the waiver then proceeds to 
add conditions that really give the executive no waiver, so if 
you read the gentlelady's amendment you will find that it does 
not achieve the goal, and I will read Section C here. Such 
waiver will result in tangible steps taken by the government of 
the Russian Federation to cease its espionage activities at the 
intelligence facility at Lourdes, Cuba.
    So, for instance, say we had the situation where the 
President of the United States felt and the intelligence 
committees of the Congress agreed that it is in our interest to 
have this facility operational. You know, in these kinds of 
situations sometimes they get some disinformation as well, so 
that it gives you an opportunity to be listened to. You may be 
able to send messages that you want to send.
    There are lots of reasons why the United States might want 
to keep this facility open, and so even if the President of the 
Untied States and the intelligence people and the Secretary of 
Defense all decided at the end of the day that this facility 
was important to keep open for national security reasons, the 
gentlelady's amendment precludes that action by the President 
of the United States.
    What I simply do in the amendment that I have offered here 
is strike B and C for a start. If you want to focus on this, it 
seems to me, and we have done this with Democratic and 
Republican Presidents alike, is that Congress tells them what 
they think needs to happen somewhere, and then we give the 
President a waiver if the President of the United States has a 
significant national security interest, a national security 
interest waiver.
    The gentlelady's amendment provides no such waiver because 
in the amendment it restates the condition in Section C, lines 
15 through 18, that basically say even if the President of the 
United States finds it is in our national security interest not 
to get into this battle of closing listening positions, even if 
the President of the United States thinks it may be in our 
interest to keep this listening position open, he still cannot 
reschedule debt.
    Now, if you go from there, the rescheduling of debt may not 
be a favor to the Russians. It is often the lender that wants 
to reschedule the debt because the lender wants to get repaid. 
Some of this debt actually goes back to lend/lease. I think 
about $600 million is owed to us from the old Soviet Union from 
World War II when we were jointly fighting the Nazis in Europe.
    If the United States Government decides that having Russia 
not collapse economically is in our economic interest, if the 
United States decides it is in our economic interest to 
reschedule this debt and increase the likelihood that it will 
get repaid irrespective of our interest under this legislation, 
the President would have to prevent the rescheduling of debt.
    Well, let's think about what happens in a Russia that goes 
into complete economic collapse. We all spent a lot of time 
here worrying about Russian scientists going to work for the 
Iranians and the Iraqis. We worry about Russian scientists 
going to work for the North Koreans. There are a lot of agendas 
before this country on national security.
    I understand the gentlelady's focus on what happens at this 
one facility in Cuba, but let me tell you something. The Soviet 
arsenal is a far more dangerous threat to America, a Russia out 
of control. In legislation which I hope we will be able to get 
to today, I have legislation to deal with an immense problem in 
Russia of rusting and rotting submarines, some of them still 
with weapons systems in place.
    Under the lady's legislation, if we need to reschedule some 
debt so we can address these issues that could create a nuclear 
cloud over northern Europe, we would not be able to do that 
rescheduling unless the President shuts down this listening 
facility, which the President may decide with his national 
security people it is in our best interest to keep open.
    So it seems to me if you want to achieve what the 
gentlelady wants to achieve, which is to put pressure on the 
Russians to close this facility, and again, you know, I think 
we ought to spend a little more time with the Intelligence 
Committee discussing this issue. At least you ought to give the 
President of the United States the ability to say wait a 
minute, maybe we want to keep it open.
    Two, maybe even if we want it closed it is more important 
to us to make sure the Russians do not disintegrate, that 
Afghanis and Pakistanis and all these countries that are on the 
terrorism list do not have access to all this nuclear 
technology coming out of Russia.
    Let's focus on what is important to us. I forget. Is it 
6,000 or 9,000 weapons that the Russians still have? What is 
important to the United States is keep the Russians stable 
enough so they are not aiming those weapons back at the United 
States.
    To come up here with a resolution that does not give the 
President of the United States a real national security waiver 
seems to me to be outrageous, and I would hope that the 
Administration would be given an opportunity to come forward 
and express themselves.
    But it seems to me that, you now, when you look at your 
responsibilities as a Member of Congress, we have regional 
concerns. We have global concerns. There can be no greater 
concern for the United States at this stage than these global 
concerns.
    We spent hours in this Committee worried about if the North 
Koreans developed one nuclear missile. I mean, what do we do if 
there is one missile coming toward California? Some people here 
less friendly to California might not be concerned about that, 
but----
    Chairman Gilman. The gentleman's time has expired.
    Mr. Gejdenson. If I could have unanimous consent for 2 
additional minutes?
    Chairman Gilman. Without objection.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    There is nothing more important to America's national 
security than what happens inside of Russia, and if it means 
rescheduling $600 million worth of debt that we gave them when 
they were fighting the Nazis to make sure there is some 
stability there so we can deal with rotting submarines and 
other issues in Russia, I think we have got the responsibility, 
if we want to be responsible legislators, if the President says 
he needs a national security waiver, we ought to give him that 
waiver.
    So I would hope that my colleagues could support my 
amendment and then support the gentlelady's amendment, which I 
have some trouble with, but I would be willing to accept it if 
we give the President of the United States a real waiver, not 
what is in this, which is really no waiver at all.
    Mr. Bereuter. Will the gentleman yield?
    Mr. Gejdenson. I would be happy to yield.
    Mr. Bereuter. I thank the gentleman for yielding.
    I understand the nature of the gentleman's argument in his 
amendment, but is it possible that the gentleman, instead of 
striking the second part, page 2, lines 12 and 19, can still 
provide for some kind of report to the Congress?
    I would not think you would necessarily find but if you are 
successful with the first half in deleting B and C that you 
would find a report objectionable. I wonder if there is some 
accommodation?
    Mr. Gejdenson. I would be happy to work something out on 
the second part with the gentleman or the gentlelady.
    Mr. Bereuter. The gentlelady.
    Mr. Gejdenson. I would just say that I think every 90 days 
is a little bit often. I mean, I think one of the dangers for 
this Committee and all committees in Congress is we demand more 
paper and reports than anybody actually looks at.
    I mean, if you went to every 6 months to report, you know, 
that is not bad. Every 90 days, it seems to me--you know, I am 
not sure what we are achieving with every 90 days.
    Mr. Bereuter. Thank you.
    Ms. Ros-Lehtinen. Mr. Chairman.
    Chairman Gilman. The gentleman's time has expired.
    I am going to make a summary, a short statement, and then I 
will recognize the gentlelady. I regret that I am going to have 
to go on to another meeting. I am going to ask Mr. Goodling to 
chair the meeting.
    I want to commend our colleague, the gentlelady from 
Florida, for her measure and my very strong support for it. I 
will ask that my first statement be made part of the record. I 
do oppose the gentleman's amendment. I support the gentlelady's 
amendment.
    The Russian government is indeed providing large sums of 
money to the Castro regime in Cuba for the use of its facility 
in Lourdes. This bill points out that our own Defense 
Department has estimated that Russia gives the Cuban government 
oil and other commodities valued at between $100 million and 
$300 million annually for the use of the Lourdes facility.
    At a time when the Russian government is seeking outright 
forgiveness of much of its debt to our nation and to other 
governments around the world, when the Russian government is 
leaning on our nation to provide it with hundreds of millions 
of dollars from the sale of donated American food to pay 
Russian merchants and when Russia is leaning on us to help 
finance its arms reductions under START-1, while it spends 
hundreds of millions of dollars to fund a duty war in Chechnya, 
I think it is unacceptable that the Russian government 
continues to provide financial support to the Castro regime 
with subsidies such as this.
    As this bill makes clear, we ought to tell the Russian 
government that there will be no rescheduling or forgiveness of 
its bilateral debt to our nation until it closes that facility. 
The fact is that the Russian government has benefited and 
benefited greatly from the debt relief we and the other members 
of the Paris Club and creditors who have already provided.
    My colleagues, there is more to be concerned about with 
regard to the Russian facility at Lourdes than just Russia's 
willingness to pay Castro what it will not pay to its 
creditors. Secretary of Defense William Cohen has publicly 
stated that our Defense Department is concerned about this, 
``The use of Cuba as a base for intelligence activities 
directed at the United States.''
    A Russian intelligence defector has stated publicly that 
the significance of the Lourdes facility has grown since former 
Russian President Yeltsin secretly ordered Russian agencies to 
step up the theft of American economic and trade secrets in 
1996.
    When questioned in a public hearing about the Yelstin order 
to step up such commercial espionage, FBI Director Lou Freeh 
said that the expertise of Russian intelligence operations 
presents, ``A very formidable, very ominous threat to our 
economy.''
    Once again I commend the gentlelady from Florida for 
working hard on this issue, and I urge the Members of our 
Committee to join in insisting that this kind of financial 
support provided to Fidel Castro by the Russian government come 
to a cessation, and I urge the Members of this Committee to 
join in insisting that our government act on the publicly 
stated concerns of our own officials by addressing the threat 
to our security that it poses.
    I urge the adoption of this measure, and I recognize the 
gentlelady from Florida.
    Mr. Hastings. Mr. Chairman, I move we adjourn as it 
pertains to H.R. 4118.
    Chairman Gilman. The gentleman is not recognized at this 
time, and I yield the remainder of my time to the gentlelady 
from Florida.
    Mr. Hastings. Mr. Chairman? Mr. Chairman, a parliamentary 
inquiry?
    Chairman Gilman. What is the gentleman's inquiry?
    Mr. Hastings. Is it not that a motion to adjourn is germane 
at any time when offered by a Member?
    Chairman Gilman. At this point the question is not germane, 
and I yield the balance of my time to Ms. Ros-Lehtinen.
    Mr. Ackerman. Mr. Chairman.
    Chairman Gilman. The gentlelady is recognized.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Mr. Ackerman. Mr. Chairman.
    Ms. Ros-Lehtinen. Mr. Chairman, the gentleman's agreement--
--
    Mr. Ackerman. Mr. Chairman? A parliamentary inquiry, Mr. 
Chairman.
    Chairman Gilman. The gentleman may state his parliamentary 
inquiry.
    Mr. Ackerman. Could you explain for this Member, who 
believes he has an understanding of parliamentary procedure, 
why a motion to adjourn is not in order at this time?
    Chairman Gilman. I am going to yield to our counsel.
    Mr. Weinberg. I would advise the Chairman that when a 
Member is recognized and has 5 minutes under the 5-minute rule, 
the Member cannot be interrupted for the purpose of receiving a 
motion to adjourn or, frankly, any other motion.
    Mr. Ackerman. Is that the ruling of the Chair?
    Chairman Gilman. That is the ruling of the Chair.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Gejdenson. Would the gentleman yield for one moment?
    Chairman Gilman. I would be pleased to yield to the 
gentleman.
    Mr. Gejdenson. Thank you. So my understanding is that the 
gentleman from Florida's motion would be in order at the 
conclusion of the Chairman's time, which he is now yielding to 
the gentlelady from Florida.
    Chairman Gilman. That is correct.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Gejdenson. I will withdraw my motion.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Chairman Gilman. The gentlelady is recognized.
    Ms. Ros-Lehtinen. Mr. Chairman and colleagues, the 
amendment before us, Mr. Gejdenson's amendment, says that the 
President can waive, but he does not have to give us any 
detailed reasons why. He is striking the part that says that 
the President shall offer an explanation, prepare and transmit 
to the Committee on International Relations and the Committee 
on Foreign Relations a report that contains a description.
    My amendment says that the President can waive. We do not 
take that right from the President. The amendment allows a 
waiver, but it says that the President must explain why. I do 
not think that that is too much to ask. All we are doing is 
highlighting two critical national security priorities, which 
the gentleman's amendment would eliminate. And that is 
multilateral and bilateral nonproliferation and arms limitation 
agreements.
    Can anyone argue that Russian compliance with the arms 
limitation and nonproliferation agreement is not a priority for 
this Committee, for the Foreign Relations Committee, for the 
Untied States Congress and indeed for the entire nation? The 
reports merely ask for the President to keep Congress updated 
on national security developments. I think it is part of our 
right and our responsibility as elected officials to always 
have U.S. national security in mind.
    Mr. Gejdenson. Will the gentlelady yield?
    Ms. Ros-Lehtinen. Are we to simply allow a waiver of this 
bill and to reschedule debt and not care about what happens in 
the interim? We have been talking about this for 8 years and 
have nothing to show for it but a supposed compliance of the 
Russians.
    In fact, I asked Secretary Albright in February in this 
Committee if she had raised the issue with the new Russian 
president, and I have yet to receive a response from the 
Secretary about that. I do not know if the President would even 
comply with our periodic reports.
    What are we doing to pressure Russia in order to comply 
with this? This is not foreign aid, and I would like to----
    Mr. Gejdenson. Will the gentlelady----
    Ms. Ros-Lehtinen [continuing]. Remind my colleagues of 
this. It is debt that they owe to the United States.
    I will be pleased to yield to the gentleman.
    Mr. Gejdenson. Thank you. I would say, you know, several 
things here. I do not have a problem with the report. I just 
think we are not productive in having that report every 90 
days.
    Ms. Ros-Lehtinen. We can make it 180. It is every whatever 
number of days we can come up with, and 180 is another number 
that we can----
    Mr. Gejdenson. If the bill----
    Ms. Ros-Lehtinen [continuing]. After the transmission of 
the written certification. It is not every 90 days.
    Mr. Gejdenson. If the gentlelady will accept 180 days, I do 
not mind burying us with a little more paper. I would ask----
    Ms. Ros-Lehtinen. I would be glad to go with 180 if the 
gentleman would like.
    Mr. Gejdenson. I would like unanimous----
    Ms. Ros-Lehtinen. But remember that your amendment is 
wiping out the reporting language altogether, so if you----
    Mr. Gejdenson. No.
    Ms. Ros-Lehtinen [continuing]. Would like to amend your 
amendment and put in the reports again, lines 12 through 19, 
and----
    Mr. Gejdenson. The gentlelady is saying that I have no 
amendment at that stage, so I guess what I am saying is this. 
How long has Lourdes been there? When did it start?
    Ms. Ros-Lehtinen. It has not been as updated now as----
    Mr. Gejdenson. Right, but we have had----
    Ms. Ros-Lehtinen. The facility, the state-of-the-art 
technology that is in place now in Lourdes has just had a 
multi-mullion dollar operation and an update just recently of 
sophisticated technology.
    It has not existed in this stage, Mr. Gejdenson, no. You 
cannot compare the Lourdes of today with the Lourdes even of 10 
years ago.
    Mr. Gejdenson. And you cannot----
    Ms. Ros-Lehtinen. It has actually doubled in size. It is 
state-of-the-art technology. You cannot compare it even to what 
it was 10 years ago. Those have been in open reports. I am not 
saying anything that has taken place in our classified 
briefings.
    The open reports have proven that this technology has 
improved substantially in the years that we have been winking 
and nodding at Russia and thinking that they are cooperating 
with us.
    Mr. Gejdenson. If I could say to the gentlelady, I would be 
happy to try to work something out with the gentlelady, but to 
say that the President has no waiver, which is what her bill 
does in its present form, is something I can't support.
    I am very happy to drop--if the lady is interested in 
supporting my amendment, I am very happy to change it to 180 
days, and that, it seems to me, is not so burdensome that as 
annoyed as State may be it is something they ought to be able 
to do, but I do think the President has to have a waiver.
    We have had Presidents now for as long as this facility has 
been there. We have not thought this was such an issue of 
national security that they have gone out of their way to deal 
with it. If the gentlelady's position is----
    Ms. Ros-Lehtinen. If the gentleman would yield?
    Mr. Gejdenson. The technology has been probably to the 
level of the existing technology at that time. Everybody----
    Mr. Goodling [presiding]. Would the gentlelady yield?
    Ms. Ros-Lehtinen. If the gentleman would yield?
    Mr. Gejdenson. Yes. It is the gentlelady's time.
    Ms. Ros-Lehtinen. If I could yield back the time? Also, if 
we could discuss lines 11 through 14? I think that you would 
agree that that helps us to understand the nature of the 
waiver.
    I would have no difficulty in eliminating 15 through 18, 
but I believe that your amendment, if we were to keep lines 11 
through 14, which is the essence of the underlying amendment 
that is before us, that is something that we really need 
because the waiver is getting at the multilateral and bilateral 
nonproliferation and arms limitation. I would not like to have 
that eliminated. Then we could go back to keeping the report 
and reporting language in my amendment.
    If I could yield my time to Mr. Menendez of New Jersey?
    Mr. Gejdenson. Mr. Chairman.
    Ms. Ros-Lehtinen. Mr. Menendez.
    Mr. Menendez. I thank the gentlelady. Am I to understand 
that you would accept as a----
    Ms. Ros-Lehtinen. Who are you addressing, Mr. Menendez?
    Mr. Menendez. Excuse me?
    Ms. Ros-Lehtinen. Who are you addressing?
    Mr. Menendez. I am addressing you, Ms. Ros-Lehtinen. Am I 
to understand? I was going to offer an amendment in the nature 
of a substitute to Mr. Gejdenson, and maybe we could all agree 
here, that would do two things.
    That would give the President a national interest waiver, 
which you have as A, and that is lower than a national security 
waiver. Second, keep in B, take out C, which is the tangible 
steps, and, last, amend your 90 days to 180 days. Are those 
amendments that you would accept?
    Ms. Ros-Lehtinen. I would be agreeable to that. Not 
enthusiastically, but I would agree to that because of the 
concerns that Mr. Gejdenson has, and I think that is the kind 
of amendment that Mr. Gejdenson would be able to support 
because it gets to the waiver that he wishes for the President 
to make.
    It gets to the reporting language that we would like, and 
it continues with the multilateral and nonproliferation 
language which is at the heart of the national security 
concerns for the U.S. residents.
    Mr. Menendez. If you would continue to yield, can I ask Mr. 
Gejdenson if that is something that he can accept that would 
meet his concerns about the President's flexibility, which 
clearly seems to me that at that point, with that struck out, 
he has all of the flexibility necessary and is less onerous on 
the State Department, but still meets I think our mutual goals 
of insuring that the Russians, as we continue to spend an 
enormous amount of money on their behalf, and they seem to 
spend hundreds of millions of dollars not only in payments to 
Castro for the spy station, but several hundred million more 
building him a second location; that we would ultimately give 
them the message, but give the President the flexibility.
    I would hope the gentleman could accept that.
    Mr. Gejdenson. If the gentlelady will yield?
    Ms. Ros-Lehtinen. Yes. I will be glad to, Mr. Gejdenson.
    Mr. Gejdenson. I would say the gentleman from New Jersey 
again in a Solomon like effort may have been able to bridge our 
differences here.
    The only thing that I would say here is that the issue in 
lines 12 through 14, so that we are not misinterpreting each 
other, is at the moment the Russians would argue that we are 
about to violate our agreements with them with the star wars 
efforts, so there is always some debate, and I want to make 
sure the language gives the President, even if there is a 
debate about any of those provisions, the President gets his 
national security waiver.
    These are the points we ought to focus on that obviously we 
want them to fulfill their responsibility in nonproliferation 
and----
    Mr. Menendez. If the gentleman would yield one moment? This 
is not even a national security waiver, which would be a much 
higher standard.
    Mr. Gejdenson. I understand that.
    Mr. Menendez. This is a national interest waiver.
    Mr. Gejdenson. I understand that, but I want to make sure 
we are not miscommunicating here that we find ourselves in a 
position that we want to give the President that national 
interest waiver if he thinks that it is in the national 
interest to do that even if there may be some debate over some 
of these provisions.
    I mean, I think that is the only issue. If that is 
acceptable to the gentleman, I think we should have the staff 
just draft up the language, and then I would not have a problem 
with that.
    Mr. Menendez. Well, it is the gentlelady's amendment, but 
certainly my understanding of it would go toward that 
direction, and I think that we would meet our mutual goals in 
that regard.
    Ms. Ros-Lehtinen. Just to make sure that we can summarize 
it in the correct way, we would continue to keep lines 11 
through 14, and we would eliminate 15 through 18, and we would 
have the periodic reports 180 instead of 90, but we would have 
the periodic reports.
    Mr. Gejdenson. My understanding is just again, for 
instance, right now there is a debate whether the Russians are 
in compliance on the Conventional Forces in Europe as a result 
of the fight they had in Chechnya. Now, I would assume as they 
move toward that resolution they will get in compliance, but 
again it was the gentleman's interpretation, the lady's 
interpretation, that if the President finds it in the national 
interest he can waive the implementation.
    Mr. Goodling. The gentlelady's time has ended 8 minutes and 
43 seconds ago, and I would suggest----
    Mr. Hastings. Mr. Chairman.
    Mr. Goodling [continuing]. That I recognize Mr. Hastings 
while you people put together whatever this amendment is trying 
to be, and then----
    Mr. Hastings. Thank you, Mr. Chairman.
    Mr. Goodling [continuing]. We can vote on that.
    Mr. Hastings.
    Mr. Hastings. Mr. Chairman, I would like to preface my 
motion with just a very brief statement. As a Member of the 
Select Committee on Intelligence and, as a matter of fact, the 
only Member of the House to sit on the Intelligence Committee 
and the International Relations Committee, I am compelled to 
express serious reservations with the forum that we are 
choosing to discuss a matter that all Members ought have an 
opportunity to be very conversant about.
    I do not in any way impugn the awesomeness of the problem 
that has been brought to us by my dear friend and colleague 
from Florida, Ms. Ros-Lehtinen, but I do believe that it is 
inappropriate for us in light of the potential for serious 
national security concerns to go forward.
    There are several Members that would like to be heard on 
this. I would prefer that we do that in a closed forum toward 
that end----
    Ms. Ros-Lehtinen. Mr. Chairman.
    Mr. Hastings [continuing]. As it pertains to this 
particular measure. Not the entire mark up, but as it pertains 
to H.R. 4118. I move that we adjourn and take this matter up in 
a closed forum.
    Ms. Ros-Lehtinen. Mr. Chairman? Mr. Chairman.
    Mr. Goodling. You have to move to adjourn the entire 
meeting. You cannot adjourn a portion of the meeting.
    Mr. Hastings. So moved.
    Mr. Gejdenson. Would the gentleman yield?
    Mr. Hastings. I will yield.
    Mr. Gejdenson. So it is my understanding that you have now 
moved to adjourn? Simply to adjourn?
    Mr. Hastings. Simply to adjourn since I cannot move as it 
pertains to the specific----
    Ms. Ros-Lehtinen. Mr. Hastings.
    Mr. Hastings [continuing]. Matter that I seek to have 
adjourned.
    Ms. Ros-Lehtinen. May I speak to the motion, Mr. Chairman?
    Mr. Hastings. No.
    Mr. Goodling. By unanimous consent, you can speak on the 
motion. Would you wish to ask unanimous consent?
    Ms. Ros-Lehtinen. I wish to ask for unanimous consent to 
speak on the motion.
    Mr. Goodling. Is there any objection? If not, the 
gentlelady is recognized.
    Ms. Ros-Lehtinen. If I could just refer to the----
    Mr. Hastings. I object, Mr. Chairman.
    Mr. Goodling. Then the question is on the motion to 
adjourn. All in favor give your consent by saying aye.
    [Chorus of ayes.]
    Mr. Goodling. Those opposed, no.
    [Chorus of noes.]
    Mr. Goodling. In the opinion of the Chair, the noes have 
it.
    Mr. Hastings. Mr. Chairman, I ask for a recorded for.
    Mr. Goodling. Roll call is requested. Are there a 
sufficient show of hands for a roll call?
    [A show of hands.]
    Mr. Goodling. Now we have sufficient. The clerk will call 
the role.
    Ms. Rush. Mr. Gilman.
    [No response.]
    Ms. Rush. Mr. Goodling.
    Mr. Goodling. No.
    Ms. Rush. Mr. Goodling votes no.
    Mr. Leach.
    [No response.]
    Ms. Rush. Mr. Hyde.
    [No response.]
    Ms. Rush. Mr. Bereuter.
    Mr. Bereuter. No.
    Ms. Rush. Mr. Bereuter votes no.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Rush. Mr. Smith votes no.
    Mr. Burton.
    [No response.]
    Ms. Rush. Mr. Gallegly.
    [No response.]
    Ms. Rush. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. No.
    Ms. Rush. Ms. Ros-Lehtinen votes no.
    Mr. Ballenger.
    Mr. Ballenger. No.
    Ms. Rush. Mr. Ballenger votes no.
    Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Rush. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    [No response.]
    Ms. Rush. Mr. Royce.
    [No response.]
    Ms. Rush. Mr. King.
    Mr. King. No.
    Ms. Rush. Mr. King votes no.
    Mr. Chabot.
    [No response.]
    Ms. Rush. Mr. Sanford.
    [No response.]
    Ms. Rush. Mr. Salmon.
    [No response.]
    Ms. Rush. Mr. Houghton.
    Mr. Houghton. No.
    Ms. Rush. Mr. Houghton votes no.
    Mr. Campbell.
    Mr. Campbell. No.
    Ms. Rush. Mr. Campbell votes no.
    Mr. McHugh.
    [No response.]
    Ms. Rush. Mr. Brady.
    [No response.]
    Ms. Rush. Mr. Burr.
    [No response.]
    Ms. Rush. Mr. Gillmor.
    [No response.]
    Ms. Rush. Mr. Radanovich.
    Mr. Radanovich. No.
    Ms. Rush. Mr. Radanovich votes no.
    Mr. Cooksey. Mr. Cooksey.
    Mr. Cooksey. No.
    Ms. Rush. Mr. Cooksey votes no.
    Mr. Tancredo.
    [No response.]
    Ms. Rush. Mr. Gejdenson.
    Mr. Gejdenson. Votes aye.
    Ms. Rush. Mr. Gejdenson votes yes.
    Mr. Lantos.
    [No response.]
    Ms. Rush. Mr. Berman.
    Mr. Berman. Aye.
    Ms. Rush. Mr. Berman votes yes.
    Mr. Ackerman.
    Mr. Ackerman. Yes.
    Ms. Rush. Mr. Ackerman votes yes.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Yes.
    Ms. Rush. Mr. Faleomavaega votes yes.
    Mr. Martinez.
    [No response.]
    Ms. Rush. Mr. Payne.
    [No response.]
    Ms. Rush. Mr. Menendez.
    [No response.]
    Ms. Rush. Mr. Brown.
    [No response.]
    Ms. Rush. Ms. McKinney.
    [No response.]
    Ms. Rush. Mr. Hastings.
    Mr. Hastings. Aye.
    Ms. Rush. Mr. Hastings votes yes.
    Ms. Danner.
    Ms. Danner. Aye.
    Ms. Rush. Ms. Danner votes yes.
    Mr. Hilliard.
    Mr. Hilliard. Aye.
    Ms. Rush. Mr. Hilliard votes yes.
    Mr. Sherman.
    [No response.]
    Ms. Rush. Mr. Wexler.
    Mr. Sherman. No.
    Ms. Rush. Mr. Sherman votes no.
    Mr. Wexler.
    Mr. Wexler. Aye.
    Ms. Rush. Mr. Wexler votes yes.
    Mr. Rothman.
    [No response.]
    Ms. Rush. Mr. Davis.
    Mr. Davis. No.
    Ms. Rush. Mr. Davis votes no.
    Mr. Pomeroy.
    Mr. Pomeroy. Aye.
    Ms. Rush. Mr. Pomeroy votes yes.
    Mr. Delahunt.
    [No response.]
    Ms. Rush. Mr. Meeks.
    Mr. Meeks. Aye.
    Ms. Rush. Mr. Meeks votes yes.
    Ms. Lee.
    Ms. Lee. Aye.
    Ms. Rush. Ms. Lee votes yes.
    Mr. Crowley.
    [No response.]
    Ms. Rush. Mr. Hoeffel.
    Mr. Hoeffel. Aye.
    Ms. Rush. Mr. Hoeffel votes yes.
    Mr. Gejdenson. Mr. Chairman, how am I recorded?
    Ms. Rush. Mr. Gejdenson voted yes.
    Mr. Gejdenson. Mr. Chairman, I would like to change my vote 
to no.
    Mr. Menendez. Mr. Chairman, how am I recorded?
    Ms. Rush. Mr. Gejdenson votes no.
    Mr. Menendez did not vote.
    Mr. Menendez. I vote no.
    Ms. Rush. Mr. Menendez votes no.
    Mr. Rothman. Mr. Chairman, how am I recorded?
    Ms. Rush. Mr. Rothman is not recorded.
    Mr. Rothman. I vote no.
    Ms. Rush. Mr. Rothman votes no.
    Mr. Ackerman.
    Mr. Ackerman. No.
    Ms. Rush. Mr. Ackerman changes his vote to no.
    Mr. Faleomavaega. Mr. Chairman, how am I recorded?
    Ms. Rush. Mr. Faleomavaega is recorded as yes.
    Mr. Faleomavaega. I vote no.
    Ms. Rush. Mr. Faleomavaega changes to no.
    Mr. Gilman.
    [No response.]
    Ms. Rush. Mr. Leach.
    [No response.]
    Ms. Rush. Mr. Hyde.
    Mr. Ackerman. Mr. Chairman, I ask unanimous consent that 
the roll call be revoked.
    Ms. Rush. Mr. Burton.
    [No response.]
    Ms. Rush. Mr. Gallegly.
    [No response.]
    Ms. Rush. Mr. Manzullo.
    [No response.]
    Ms. Rush. Mr. Royce.
    [No response.]
    Ms. Rush. Mr. Chabot.
    [No response.]
    Ms. Rush. Mr. Sanford.
    [No response.]
    Ms. Rush. Mr. Salmon.
    [No response.]
    Ms. Rush. Mr. McHugh.
    Mr. McHugh. No.
    Ms. Rush. Mr. McHugh votes no.
    Mr. Brady.
    [No response.]
    Ms. Rush. Mr. Burr.
    [No response.]
    Ms. Rush. Mr. Gillmor.
    [No response.]
    Ms. Rush. Mr. Tancredo.
    [No response.]
    Ms. Rush. Mr. Lantos.
    [No response.]
    Ms. Rush. Mr. Martinez.
    [No response.]
    Ms. Rush. Mr. Payne.
    [No response.]
    Ms. Rush. Mr. Brown.
    [No response.]
    Ms. Rush. Mr. Delahunt.
    [No response.]
    Ms. Rush. Mr. Crowley.
    [No response.]
    Mr. Goodling. The clerk will report the tally.
    Mr. Payne. Mr. Chairman, how am I recorded?
    Ms. Rush. Mr. Payne did not vote.
    Mr. Payne. Yes.
    Ms. Rush. Mr. Payne votes yes.
    The vote total is 10 ayes to 19 noes.
    Mr. Goodling. The motion is not agreed.
    Ms. Ros-Lehtinen. Mr. Chairman? Mr. Chairman, I believe 
that we have a compromise amendment worked out. I am glad Mr. 
Hastings did that motion. It gave us the time to work out an 
amendment.
    I just would like to tell our colleagues in reference to 
what my Florida colleague had said about why we were discussing 
this in an open forum and not in a closed session of the House 
Intelligence Committee. I would like to point out that all of 
the issues being discussed here are within the jurisdiction of 
the International Relations Committee.
    United States/Russia policy, Russian support for the Castro 
regime, debt forgiveness and rescheduling. All of those are in 
our purview, and all of the information that we have 
discussed----
    Mr. Goodling. Do you have an amendment?
    Ms. Ros-Lehtinen [continuing]. Has in fact been used as an 
open force, and I have an amendment at the desk. I have an 
amendment at the desk. While the clerk reads it, I would like 
to tell the Members that in fact briefings have been heard on 
this for many----
    Mr. Goodling. Would the gentlelady suspend until we see an 
amendment?
    First of all, Mr. Gejdenson would have to withdraw----
    Ms. Ros-Lehtinen. Mr. Gejdenson is going to withdraw his 
amendment.
    Mr. Goodling. He would have to do that first,----
    Ms. Ros-Lehtinen. Yes.
    Mr. Goodling [continuing]. Then we have to distribute your 
new amendment and then you will debate that.
    Ms. Ros-Lehtinen. I will explain what it does while they 
are getting that.
    Mr. Goodling. First of all, I have to have Mr. Gejdenson 
remove his amendment. Would you like to do that?
    Mr. Gejdenson. Thank you. I now ask unanimous consent to 
withdraw my amendment, and I would like to particularly at this 
moment thank all my colleagues, Mr. Hastings, Mr. Menendez and 
the gentlelady from Florida, for the efforts to find 
compromise.
    Mr. Goodling. Is there any objection to the withdrawal of 
the Gejdenson amendment?
    [No response.]
    Mr. Goodling. I would now ask----
    Mr. Rohrabacher. Mr. Chairman, I am observing my right to 
object just to say that I am sorry that Ms. Ros-Lehtinen has 
had to compromise on her very fine original proposal and has 
been forced into a position to take a weaker----
    Mr. Goodling. I am now asking the gentlelady from Florida 
to withdraw her amendment.
    Ms. Ros-Lehtinen. I am, and I will yield to Mr. Gejdenson.
    Mr. Goodling. I am asking you to withdraw your amendment.
    Ms. Ros-Lehtinen. I am withdrawing my amendment, Mr. 
Chairman.
    Mr. Goodling. You are asking unanimous consent?
    Ms. Ros-Lehtinen. I would like unanimous consent to 
withdraw my amendment..
    Mr. Goodling. Is there an objection?
    [No response.]
    Mr. Goodling. The gentlelady's amendment is withdrawn.
    Mr. Gejdenson. I have a parliamentary inquiry just to get 
where we are, and that is my----
    Mr. Goodling. You may state your parliamentary inquiry.
    Mr. Gejdenson. It is my understanding that the new 
amendment is the old amendment that I had modified, which I 
would think would still go to the gentlelady's original 
amendment offered here today. Is that not correct?
    If the gentlelady withdraws her amendment, I have to amend 
the original document. No? She is not withdrawing----
    Ms. Ros-Lehtinen. I am not withdrawing the underlying 
amendment.
    Mr. Gejdenson. OK. So it is the second way? Fine.
    Ms. Ros-Lehtinen. My underlying amendment is still there.
    Mr. Gejdenson. I would offer this amendment, if the staff 
is ready to distribute the amendment, or am I the only one with 
a copy of it? Copies are being made as we speak.
    Mr. Goodling. Copies are being made, and we can distribute 
them.
    Mr. Gejdenson. I will ask unanimous consent to explain the 
amendment while they are doing that.
    Mr. Goodling. The gentleman is recognized for 5 minutes to 
explain the----
    Mr. Menendez. Mr. Chairman? Mr. Chairman, a parliamentary 
inquiry.
    Mr. Goodling. Who is----
    Mr. Menendez. It is Mr. Menendez.
    Mr. Goodling. Mr. Menendez.
    Mr. Menendez. Mr. Chairman, my parliamentary inquiry is 
this because we are all trying to get to the same goal. I 
believe the gentlelady still must maintain her amendment.
    Mr. Goodling. She has her original amendment.
    Mr. Menendez. It is still pending?
    Ms. Ros-Lehtinen. Yes.
    Mr. Menendez. Then thank you very much.
    Mr. Gejdenson. What this amendment would do is achieve the 
goals that we have discussed by in line 12 inserting after is 
substantially, striking lines 15 through 18, and changes on 
page 2, line 13, from 90 to 180 days.
    Mr. Goodling. Is that what the gentlelady understands?
    Ms. Ros-Lehtinen. Correct.
    Mr. Goodling. Is that what Mr. Menendez understands?
    Mr. Menendez. Yes, Mr. Chairman.
    Mr. Goodling. Then I suppose we probably do not have to 
wait for the distribution of the amendment.
    Ms. Ros-Lehtinen. If we could read the amendment in the 
bill, Mr. Chairman, as amended that would be great.
    Mr. Goodling. The professor wishes to see it, so we will 
hold until we receive the amendment.
    Mr. Gejdenson. You know, with this new system we could 
actually show the amendment on the screen.
    Ms. Ros-Lehtinen. Mr. Chairman, I gave him the Spanish 
translation of it, and he is OK with it now.
    Mr. Goodling. We have decided that the gentlelady will 
merely offer this amendment the three of you have agreed to, 
and that will make things much more----
    Ms. Ros-Lehtinen. We can keep Mr. Gejdenson's name on it. 
There is no pride of ownership.
    Mr. Gejdenson. I do not care whose name is on it. Thank 
you.
    Ms. Ros-Lehtinen. Good. Do not put mine on it.
    Mr. Goodling. The amendment appears on the screen. 
Hopefully you can read it as it moves.
    The vote now occurs on the amendment to the original. All 
those in favor give your consent by saying aye.
    [Chorus of ayes.]
    Mr. Goodling. Just a minute. They want to see the second 
part. We sure are getting our money's worth for this great 
invention.
    The motion now is on the----
    Mr. Rohrabacher. Excuse me. Is there a debate on this 
motion?
    Mr. Goodling. On the amendment to the motion as offered as 
by the young lady from Florida.
    Mr. Rohrabacher. Is there a debate on this motion? Is there 
a debate on this particular motion?
    Mr. Goodling. The gentleman is recognized for 5 minutes.
    Mr. Rohrabacher. Well, it will take very much less time 
than that. I oppose the motion and just say that we noticed 
what we have put into this amendment unfortunately again, Ms. 
Ros-Lehtinen tried to give us something that was substantial, 
something that was real policy, and now we have before us an 
amendment that puts weasel words into this law.
    Substantial compliance? Give me a break. Whenever we put 
words into this, what we are doing is just defeating the 
purpose of legislation in the first place, lying to our 
constituents that we are serious about a problem because we put 
words in that make the bill meaningless or unenforceable, which 
is what we just saw on the screen.
    Substantial compliance instead of compliance? Who is going 
to determine that? I am sorry we have had to weaken this, Mr. 
Ros-Lehtinen. Your original proposal was much better.
    Mr. Gejdenson. Mr. Chairman.
    Mr. Goodling. The gentleman is recognized.
    Mr. Gejdenson. Thank you. The gentleman from California is 
prone toward exaggeration, and I am sure that----
    Mr. Rohrabacher. Substantial exaggeration.
    Mr. Gejdenson. I think it is probably substantial, and 
significant as well.
    I think it is a mistake to imply that somehow Members' 
language here is inclined to lie to the American people. I 
think, frankly, the discussion here was very clear to make sure 
the American people understood that we were looking for 
substantial because in these areas there are constant 
disagreements.
    While the gentleman has a right to express his differences 
with that approach, I would say that, you know, it is not 
helpful for the gentleman to imply that we are lying to the 
American people, and I am sure the gentleman does not mean to. 
Maybe he does, but I think he does not mean to do that.
    I think we had a different goal. We have come to an 
agreement, and the gentleman may have a different view.
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Gejdenson. I would be happy to yield.
    Mr. Rohrabacher. I apologize if you were taking that as a 
specific to this situation, quite a critique on my part. I was 
critiquing the Congress as a whole, which puts weasel words 
into legislation and makes that legislation meaningless quite 
often, which I find is a method of lying to constituents. 
However, I was not referring to anyone in this body today in 
this specific situation.
    Mr. Goodling. The vote occurs on the amendment offered by 
the gentlelady from Florida.
    Mr. Menendez. Mr. Chairman? Mr. Chairman.
    Mr. Goodling. Mr. Menendez.
    Mr. Menendez. Thank you, Mr. Chairman. I will be very 
brief.
    I want to commend the gentlelady for negotiating an 
agreement that can produce bipartisanship, which I believe is a 
much stronger message to the Russians, that we are concerned 
about what they are doing in terms of spending hundreds of 
millions of dollars on spying on the United States, while at 
the same time spending an additional several hundred million 
dollars on creating a new spy station for the Castro regime, 
and at the same time sending the Russians a message that we are 
very concerned about what they are doing with nuclear and 
multilateral and bilateral nonproliferation and arms limitation 
agreements.
    I do not believe, though your original offer might have 
been considered stronger, that this is by any stretch of the 
imagination weak to the extent that we are sending the Russians 
a very clear message.
    I would hope that my colleagues on both sides of the aisle 
would join the Ranking Democratic voting for his amendment and 
then ultimately the bill so that we could send that strong a 
message, which I think would be very clear, direct and very 
powerful.
    Mr. Goodling. The vote occurs on the amendment offered by 
the gentlelady from Florida. All in favor give your consent by 
saying aye.
    [Chorus of ayes.]
    Mr. Goodling. Those opposed, no?
    [No response.]
    Mr. Goodling. In the opinion of the Chair, the ayes have 
it. The ayes have it.
    Are there any other amendments?
    [No response.]
    Mr. Goodling. If there are no other amendments, the 
Committee may report the bill we have under consideration with 
a single amendment. The chair will make a unanimous consent 
request. Without objection, this Committee is deemed to have 
before it an amendment in the nature of a substitute consisting 
of the text of the bill as amended to this point.
    Without objection, the amendment in the nature of a 
substitute is deemed read. The previous question was ordered on 
the amendment, and the amendment is adopted.
    If there are no further amendments, without objection the 
previous question is ordered. The gentleman from Nebraska, Mr. 
Bereuter, is recognized.
    Mr. Rohrabacher. Mr. Chairman, I object. I reserve the 
right to object. Is there no debate now on the final product of 
what we have?
    Mr. Goodling. I believe that we have had sufficient debate. 
It is not customary to have debate once we have gotten to this 
point.
    Mr. Rohrabacher. I am reserving my right to object. I 
believe that it is customary to have a debate on what the final 
bill has turned out before we actually vote on it.
    Mr. Goodling. Well, unfortunately, if we read carefully we 
have the final version that appeared on this very expensive 
screen.
    Mr. Rohrabacher. Mr. Chairman, I will, if I could, explain 
my reservation?
    Mr. Goodling. The gentleman has 30 seconds to explain his 
reservation.
    Mr. Rohrabacher. All right. Let me just say that we have 
heard what I consider to be some very absurd arguments today in 
this body, and especially absurd to have heard the proclamation 
that it is to our benefit to have a large Russian spy base so 
close to our shores and that we should basically look at that 
as a possible benefit.
    Let me just say that either the Cold War is over or it is 
not over. If the Russians keep spending hundreds of millions of 
dollars on weapons systems or intelligence systems like they 
are and what we are discussing today that we should not be 
restructuring their debts. We should be not treating them as if 
they are friends and as if the Cold War is over.
    With that said, I just wanted to make sure I put that on 
the record.
    Mr. Hastings. Would the gentleman yield?
    Mr. Rohrabacher. I only have 30 seconds. I would be happy 
to yield.
    Mr. Hastings. I would merely put to the gentleman are you 
mindful that there is a potential for serious backlash against 
our intelligence community by virtue of legislation of this 
kind?
    Mr. Rohrabacher. That is true, and it is true with any time 
we take a stand on anything it is potentially there is a 
backlash.
    In this particular case, restructuring the debt with a 
country that is spending hundreds of millions of dollars on 
weapons systems or intelligence systems aimed at the United 
States is worthy of that stand, and so I withdraw my objection, 
and you may proceed.
    Mr. Goodling. The gentleman from Nebraska is recognized.
    Mr. Bereuter. Mr. Chairman, I move that the Committee 
report the bill to the House with a recommendation that the 
bill as amended do pass.
    Mr. Goodling. The question is on the motion by the 
gentleman from Nebraska. Those in favor of the motion say aye.
    [Chorus of ayes.]
    Mr. Goodling. Those opposed say no.
    [No response.]
    Mr. Goodling. The ayes have it, the quorum being present. 
The motion is agreed to. Without objection, the Chair or his 
designee is authorized to make motions under Rule 22 with 
respect to a conference on this bill or a counterpart from the 
Senate.
    We are now ready for consideration of H.R. 4249, the Cross 
Border Cooperation and Environmental Safety in Northern Europe 
Act of 2000. The Chair lays the bill before the Committee. The 
clerk will report the title of the bill.


                       CONSIDERATION OF H.R. 4249


    Ms. Rush. H.R. 4249, a bill to foster cross border 
cooperation and environmental clean up in northern Europe.
    Mr. Goodling. Without objection, the first reading of the 
bill is dispensed with. The clerk will read the bill for 
amendment.
    Ms. Rush. Be it enacted by the Senate and the House of 
Representatives of the United States of America in Congress 
assembled----
    Mr. Goodling. Without objection, the bill is considered as 
having been read and is open to amendment at any point. The 
bill will be----
    Mr. Bereuter. Mr. Chairman, I have an amendment.
    Mr. Goodling. No one wants to speak on it first?
    [No response.]
    Mr. Goodling. I now recognize the gentleman from Nebraska. 
No. He was going to offer it. Go ahead and speak on it.
    Mr. Bereuter. Thank you, Mr. Chairman. I would like to 
speak on the bill.
    One of the reasons I did not want to adjourn is I think 
this bill is exceedingly important and, as it is about to be 
amended, an entirely appropriate product. As my colleagues will 
know, it authorizes assistance from a variety of sources and 
gives the reasons. I certainly do support the initiative before 
us and projects under that initiative in areas such as civil 
society, law enforcement, and public health.
    I think the bill also appropriately highlights the 
enormously dangerous problems of Russian nuclear waste in the 
area of Momansk and northeast Russia. There is an urgent need 
to address this very real potential environmental problem and 
to clean up this for all of us. I want to thank the gentleman 
from Connecticut for offering this legislation.
    The bill points out in Subsection 15 of Section 2 that it 
apparently has not yet been possible for the Russians to 
resolve the remaining differences over liability, taxation, 
assistance, privileges and immunity for foreign contractors and 
audit rights in regard to cleaning up this waste, the bill also 
concludes that such agreements are vital to continued 
provisions of assistance.
    Before the gentleman and I talked, I had some concerns 
about an amendment he will offer that the United States 
appropriately should expect those agreements are made before we 
offer assistance. We should expect that they are made, and that 
those differences resolved, before the European Union is urged 
to provide assistance.
    The gentleman is about to recommend that through his 
amendment and I think it is an outstanding and important 
effort. We may come to find that this is one of the more 
important bills that this Congress considers. We hope that is 
not the case. We hope there is not an environmental catastrophe 
in between, but the Russians have to get on with it, while we 
have to realize this is an international problem.
    I thank the gentleman for his initiative, and I yield back.
    Mr. Goodling. Before I recognize the gentleman from 
Connecticut, I want to have some unfinished business finished.
    The Chief of Staff is authorized by unanimous consent to 
make technical, grammatical and conforming amendments to H.R. 
4118. Is there an objection?
    [No response.]
    Mr. Goodling. If not, so ordered.
    I now recognize the distinguished gentleman from 
Connecticut, the Ranking Minority Member of the Committee, Mr. 
Gejdenson, for 5 minutes to introduce the bill.
    Mr. Gejdenson. Thank you, Mr. Chairman. I would be happy to 
do that. There is a slide presentation to take advantage of our 
new facility, and I apologize for its length in advance. My 
staff was a little eager to use the new technology.
    Many people I think believed that the rotting submarine 
force of the Soviet Union would just disappear at the end of 
the Cold War. This legislation seeks to address the problem 
through an important framework called the Northern European 
Initiative.
    We can first take a look at the Nunn-Lugar program. It has 
already facilitated the destruction of 164 submarine missile 
launches, 46 submarine launch ballistic missiles and 12 
strategic submarines. The risk remains with over 150 decaying 
submarines.
    If you have seen some of the recent discussions in the 
press, in September, 1998, a Russian sailor hijacked a 
submarine. He died while trying to set fire to the torpedoes 
and to detonate them. In January 1999, a sailor tried to sell 
nuclear submarine reactor parts, and I think that created one 
explosion.
    If you look at February 1999, a shipyard employee tries to 
sell radioactive material to North Korean agents, again 
creating a very dangerous situation. In January of 2000, a 
sailor almost caused a meltdown while stealing submarine 
components.
    If you look at this next graph, it gives you a sense of 
where the immediate effect would be, but obviously with the 
winds it could really travel around the world, affecting almost 
everybody in the Northern Hemisphere and maybe eventually 
below.
    We are very happy to see the Members being impressed by the 
very simple graphics on the board, and my sense is that silicon 
graphics will be here shortly to help us out and try to make it 
more interesting in the future. Again, there are almost 150 
non-ballistic missiles, conventional submarines awaiting 
destruction. Thirty-five of these conventional submarines are 
waiting dismantlement.
    What we have here is a piece of legislation that would help 
coordinate with the Europeans and press on the Russians to deal 
with the liability issues so we can deal with this nuclear 
threat. It also provides for a United States and Lithuania 
training programs and entrepreneurship from the countries in 
the region, the Baltic Lakes/Sea partnership program, and a 
number of other things to help develop the democratic 
institutions and civil societies of the region.
    Clearly, the most important part, as Mr. Bereuter pointed 
out, is the threat of these rotting nuclear submarines. To that 
end, when it is appropriate I have an amendment that Mr. 
Bereuter actually helped draft.
    Mr. Goodling. I would ask unanimous consent to insert 
Chairman Gilman's message in the record. So ordered.
    Is there anyone that wants to say something before this is 
moved into legislation?
    [No response.]
    Mr. Goodling. If not, I recognize Mr. Gejdenson for an 
amendment.
    Mr. Gejdenson. Thank you, Mr. Chairman. I would like to 
move these en bloc. I think most Members already have the two 
pieces of paper. The first is technical in nature. The second 
clarifies what may have created some confusion in language that 
Mr. Bereuter included.
    I would yield to Mr. Bereuter to explain his language.
    Mr. Bereuter. Thank you very much for your cooperation with 
the differences still remaining, the problems that are 
identified in your legislation in Subsection 15 of Section 2.
    As I mentioned, I think it is important that we expect that 
our aid and those aid programs from the European Union that we 
are endorsing and encouraging be brought into impact after the 
Russians solve these differences that are identified in 
Subsection 15.
    The gentleman's amendment does that, and I appreciate the 
effort. I urge the amendment's adoption, as well as the other 
adoption and urge that we do this en bloc.
    Mr. Goodling. The vote occurs on the amendment to the 
Gejdenson legislation. All in favor give your consent by saying 
aye.
    [Chorus of ayes.]
    Mr. Goodling. Opposed, no?
    [No response.]
    Mr. Goodling. In the opinion of the Chair, the ayes have 
it.
    Are there any other amendments?
    [No response.]
    Mr. Goodling. If there are no other amendments, the 
gentleman from Nebraska, Mr. Bereuter, is recognized to offer a 
motion.
    Mr. Bereuter. Mr. Chairman, I move that the Chairman be 
requested to seek consideration of the pending bill as amended 
on the suspension counter.
    Mr. Goodling. The question is on the motion of the 
gentleman from Nebraska. Those in favor of the motion say aye.
    [Chorus of ayes.]
    Mr. Goodling. Those opposed, no?
    [No response.]
    Mr. Goodling. The ayes have it. A quorum being present, the 
motion is agreed to. Without objection, the Chair or his 
designee is authorized to make motions under Rule 22 with 
respect to a conference on this bill or a counterpart from the 
Senate. Further proceedings on this measure are postponed.
    The Committee will now adjourn.
    [Whereupon, at 11:31 a.m. the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                              May 4, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7826.001
    
    [GRAPHIC] [TIFF OMITTED] T7826.002
    
    [GRAPHIC] [TIFF OMITTED] T7826.003
    
    [GRAPHIC] [TIFF OMITTED] T7826.004
    
    [GRAPHIC] [TIFF OMITTED] T7826.005
    
    [GRAPHIC] [TIFF OMITTED] T7826.006
    
    [GRAPHIC] [TIFF OMITTED] T7826.007
    
    [GRAPHIC] [TIFF OMITTED] T7826.008
    
    [GRAPHIC] [TIFF OMITTED] T7826.009
    
    [GRAPHIC] [TIFF OMITTED] T7826.010
    
    [GRAPHIC] [TIFF OMITTED] T7826.011
    
    [GRAPHIC] [TIFF OMITTED] T7826.012
    
    [GRAPHIC] [TIFF OMITTED] T7826.013
    
    [GRAPHIC] [TIFF OMITTED] T7826.014
    
    [GRAPHIC] [TIFF OMITTED] T7826.015
    
    [GRAPHIC] [TIFF OMITTED] T7826.016
    
    [GRAPHIC] [TIFF OMITTED] T7826.017
    
    [GRAPHIC] [TIFF OMITTED] T7826.018
    
    [GRAPHIC] [TIFF OMITTED] T7826.019
    
    [GRAPHIC] [TIFF OMITTED] T7826.020
    
    [GRAPHIC] [TIFF OMITTED] T7826.021
    
    [GRAPHIC] [TIFF OMITTED] T7826.022
    
    [GRAPHIC] [TIFF OMITTED] T7826.023
    
    [GRAPHIC] [TIFF OMITTED] T7826.024
    
    [GRAPHIC] [TIFF OMITTED] T7826.025
    
    [GRAPHIC] [TIFF OMITTED] T7826.026
    
    [GRAPHIC] [TIFF OMITTED] T7826.027
    
    [GRAPHIC] [TIFF OMITTED] T7826.028
    
    [GRAPHIC] [TIFF OMITTED] T7826.029
    
    [GRAPHIC] [TIFF OMITTED] T7826.030
    
    [GRAPHIC] [TIFF OMITTED] T7826.031
    
    [GRAPHIC] [TIFF OMITTED] T7826.032
    
    [GRAPHIC] [TIFF OMITTED] T7826.033
    
    [GRAPHIC] [TIFF OMITTED] T7826.034
    
    [GRAPHIC] [TIFF OMITTED] T7826.035
    
    [GRAPHIC] [TIFF OMITTED] T7826.036
    
    [GRAPHIC] [TIFF OMITTED] T7826.037
    
    [GRAPHIC] [TIFF OMITTED] T7826.038
    
    [GRAPHIC] [TIFF OMITTED] T7826.039
    
    [GRAPHIC] [TIFF OMITTED] T7826.040
    
    [GRAPHIC] [TIFF OMITTED] T7826.041
    
    [GRAPHIC] [TIFF OMITTED] T7826.042
    
    [GRAPHIC] [TIFF OMITTED] T7826.043
    

</pre></body></html>
